GR-50-98-021
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 

Office of Justice Programs

Drug Court Improvement and Enhancement Grant
Administered by Kalamazoo County, Michigan
Award Number 96-DC-MX-0007
 
GR-50-98-021
 
July 22, 1998
 

 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grant
96-DC-MX-0007 awarded by the U.S. Department of Justice, Office of Justice Programs, to
Kalamazoo County, Michigan for the period October 1, 1995, through March 31, 1998.
Kalamazoo County (County) received a grant of $750,000 to expand its Substance Abuse
Diversion Program to include nonviolent male felony offenders. Grant expenditures through
March 31, 1998, totalled $244,732.

In general, the County managed the grant properly; however, our review revealed the
  following:



A total of $1,912 charged to the grant was not properly allocated.




The County failed to account for and report on all program-related costs and income,
      resulting in total program costs and income being inaccurate. The lack of accurate
      information inhibited the County's ability to ensure compliance with its matching grant
      requirements and resulted in incorrect financial reports. 




Problems with computer software prevented the County from billing for and collecting all
      program income.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix I.
#####